               U.S. Department of Energy
               Office of Inspector General
               Office of Audit Services




       Audit Report


      Management Controls over
      Cesium and Strontium Capsule
      Disposition at the Hanford Site




OAS-M-06-06                        August 2006
REPORT ON MANAGEMENT CONTROLS OVER CESIUM AND
STRONTIUM CAPSULE DISPOSITION AT THE HANFORD SITE



TABLE OF
CONTENTS


  Cesium and Strontium Capsule Disposition

  Details of Finding                                1

  Recommendations and Comments                      3


  Appendices

   1. Objective, Scope, and Methodology             6

   2. Management Comments                           8
CESIUM AND STRONTIUM CAPSULE DISPOSITION


Disposition     Richland Operations Office's (Richland) preferred approach of
Options         direct disposal of cesium and strontium capsules in the Yucca
                Mountain Repository may not be the most feasible or economic
                approach for disposal. Specifically, the feasibility of the direct
                disposal approach faces significant regulatory and programmatic
                risks which vitrification of the capsules' contents does not face.
                Also, the cost of alternative vitrification approaches may
                approximate the cost of direct disposal.

                                             Feasibility

                Direct disposal of the cesium and strontium capsules at the Yucca
                Mountain Repository faces significant risks. The capsules are
                currently classified as waste subject to the Resource Conservation
                and Recovery Act, and the draft waste acceptance criteria for the
                Yucca Mountain Repository prohibits disposal of this type of
                waste. Office of Environmental Management (EM) officials have
                been working to change the waste acceptance criteria. However,
                Yucca Mountain Repository officials indicated that they are not
                willing to discuss a change in the waste acceptance criteria until
                the repository has received its operating license from the Nuclear
                Regulatory Commission. Additionally, according to a 2003 Fluor
                Hanford, Inc. risk assessment, even if the Department of Energy
                (Department) is successful in modifying the waste acceptance
                criteria, additional permitting requirements could mandate design
                modification of over-pack disposal canisters that would be difficult
                for the project to meet. Further, a 1997 study of alternatives found
                that vitrifying the capsules' contents would produce a standard
                high-level waste (HLW) form that would require less interface
                with the Yucca Mountain Repository than determining the
                acceptability of over-packed capsules (as required for direct
                disposal).

                Currently, the Yucca Mountain Repository's priority list for
                shipment of waste to the facility does not include the capsules
                because it was anticipated that the cesium and strontium would be
                blended in with vitrified high level waste before being sent to the
                Yucca Mountain Repository. By proceeding with direct disposal,
                one Richland official estimated shipment could be delayed until
                2028. Conversely, using an alternative vitrification approach,
                Richland could begin vitrifying the capsule contents when the
                Waste Treatment Plant (WTP) commences operations, which is
                currently scheduled for August 2019.




Page 1                                                          Details of Finding
                                                Cost

                Despite these regulatory and programmatic risks, EM is focusing
                its planning efforts on the direct disposal approach based on an
                assumption that it would be significantly less costly than vitrifying
                the capsule contents. EM and Richland officials stated that the
                cost to construct a new facility to process the capsules for
                vitrification would significantly increase the cost of this approach.
                However, in 2002, a Cleanup Constraints and Challenges Team at
                Richland identified several less costly options for vitrification
                including returning the capsule contents to the double-shell tanks
                for storage and modifying the Waste Encapsulation and Storage
                Facility for processing the capsules. The Cleanup Constraints and
                Challenges Team estimated that these alternatives could reduce the
                overall cost for vitrifying the capsules to about the same cost as
                direct disposal. The Cleanup Constraints and Challenges Team
                recommended that Richland perform a number of engineering
                analyses to assist in selecting the most suitable alternative for
                disposing of the capsules. Furthermore, additional permitting
                requirements for direct disposal such as design modifications of
                the over-pack disposal canisters could also significantly increase
                the cost of the direct disposal alternative, further narrowing any
                cost difference between direct disposal and vitrification.

Evaluation of   Although EM identified direct disposal as its preferred approach to
Alternatives    disposing of the capsules, it has not fully evaluated alternative
                approaches. For example, recent reviews of the cesium and
                strontium project by the National Academy of Sciences and EM's
                Office of Engineering and Construction Management have
                indicated the need for additional analysis before a decision could
                be made on the most appropriate course of action for storage and
                disposal of the capsules. In a 2003 report, the National Academy
                of Sciences identified several areas where the Department should
                conduct further research in order to be able to make informed
                decisions on a path forward for the capsules. Recommendations
                for additional research included evaluating the long term
                performance of the capsules if directly disposed, as well as, with
                evaluating various matrixes that could be used to vitrify or
                immobilize the capsule contents. Additionally, a 2003 report
                prepared for EM's Office of Engineering and Construction
                Management determined that Richland had insufficient analyses to
                make an informed decision as to the most appropriate path forward
                for the capsules. The EM report noted that none of the engineering
                analysis recommended in 2002 by the Cleanup Constraints and




Page 2                                                          Details of Finding
                    Challenges Team to assist in selecting the most suitable alternative
                    for disposing of the capsules had been conducted to support a
                    decision.

                    Although EM is currently evaluating the viability of the direct
                    disposal approach, it is not fully evaluating other alternatives such
                    as vitrification. Furthermore, EM has not validated, through a
                    formal cost analysis, its assumption that direct disposal is more
                    cost-effective than vitrification options suggested by the Cleanup
                    Constraints and Challenges Team.

Cost and Schedule   Ultimately, the Department may incur higher than necessary costs
Risk                to dispose of the capsules under the direct disposal approach.
                    Further, by pursuing an option with significant regulatory barriers,
                    Richland increases the possibility of making the capsules an
                    "orphaned waste" that does not have a disposal path. This could
                    result in increased costs to the Department to reprocess the waste
                    into a waste form suitable for disposal in the Yucca Mountain
                    Repository.

RECOMMENDATIONS     We recommend that the Manager, Richland Operations Office:

                          1. Perform sufficient planning and evaluation of all
                             reasonable disposal alternatives for the capsules as
                             prescribed by DOE Order 413.3, to include aspects such
                             as risk assessment and risk mitigation, life-cycle costs,
                             resource requirement, etc.; and,

                          2. Based on the results of the prior recommendation,
                             determine the most viable option for disposal of the
                             capsules.


MANAGEMENT          The Office of Environmental Management recognized that
REACTION AND        improved planning, including a formal cost alternatives
AUDITOR             evaluation, was needed to support a decision on disposition of
COMMENTS            of the cesium and strontium capsules. Therefore, EM agreed with
                    the draft report recommendations. While EM also generally
                    agreed with findings within the draft report, it identified several
                    areas where they felt that clarification or additional analyses were
                    needed. Specifically, management questioned the likelihood that
                    capsule vitrification could begin when the Waste Treatment Plant
                    began operations in 2019; pointed out that the capsules were not
                    currently planned for disposal at the Yucca Mountain Repository;
                    and, questioned the lack of cost data in the report.




Page 3                                           Recommendations and Comments
         Overall, the Department's comments appear responsive to the
         report and its recommendations. However, response to the need
         for clarification and additional analysis are addressed as follows.

         Management Comment

         Management stated that the treatment of the cesium and strontium
         capsules is not currently included in the WTP design and schedule.
         Therefore, the report assumption that treatment of the capsule
         contents could commence with the start of WTP operations is very
         uncertain. Management contends that it was more likely that a
         vitrification disposition path for the capsules would require
         extended storage of the capsules, due to the WTP schedule and
         treatment and planned priority for treatment of HLW tank wastes.

         Auditor Response

         We agree that treatment of the cesium and strontium capsules is
         not currently included in the WTP design and schedule; therefore,
         no significant planning has been done to determine whether the
         approach is possible or cost effective. Without evaluating the
         options, it is not known with any certainty whether treatment of the
         capsules could begin at the same time WTP begins operations.
         However, with the long lead time until WTP begins operations,
         there should be sufficient time to perform the necessary planning
         and preparations to begin capsule processing at the same time that
         WTP begins operations, if such approach proves to be feasible.

         Management Comment

         Management stated that notwithstanding previous reviews
         suggesting possible methods of disposal in a geologic repository,
         the cesium and strontium capsules are not waste forms currently
         planned for disposal by the Office of Civilian Radioactive Waste
         Management (OCRWM).

         Auditor Response

         We agree that the capsules are not waste forms currently planned
         for disposal by OCRWM at the Yucca Mountain Repository. Our
         concern is that Richland has identified direct disposal as the
         preferred alternative without fully evaluating alternative
         approaches. As stated in the report, the capsules in their current
         state do not meet the waste acceptance criteria for the Yucca
         Mountain Repository. According to OCRWM documentation, the




Page 4                                                           Comments
         assumption has been that the capsule contents would be vitrified
         before shipment to the Yucca Mountain Repository. In order to
         directly dispose of the capsules, the Department will have to obtain
         either a waiver or modification of the waste acceptance criteria.

         Management Comment

         Management stated there was insufficient cost information in the
         draft report to justify the claim that direct disposal may be more
         costly or have greater risk than the former vitrification treatment
         option.

         Auditor Response

         We relied on the Department's own studies which noted that
         alternatives had not been sufficiently evaluated and that potential
         cost savings could be realized. These studies are noted in the body
         of the report. We reviewed the assumptions used in the reports for
         reasonableness. While we found the assumptions to be reasonable,
         the cost estimates were only of a rough order-of-magnitude and
         were several years old. Our concern remains that Richland has not
         performed sufficient analyses to determine the most feasible and
         cost effective approach to disposing of the capsules.




Page 5                                                           Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine if Richland is pursuing
              the most viable and economical strategy for storing and disposing
              the cesium and strontium capsules.


SCOPE         The audit was performed from May 2005 to March 2006. The
              scope of the audit included Richland's planning for storage and
              disposal of the capsules from Fiscal Year 1997 through Fiscal Year
              2006.


METHODOLOGY   To accomplish the audit objective, we:

                  •   Reviewed Richland's planning efforts for storage and
                      disposal of the capsules;
                  •   Researched laws, regulations, policies, and procedures
                      relevant to storage and disposal of the capsules;
                  •   Reviewed prior Office of Inspector General and
                      Government Accountability Office reports;
                  •   Interviewed personnel responsible for planning for storage
                      and disposal of the capsules;

                  •   Evaluated performance management plans, decision
                      documents and project plans to determine past and current
                      plans for capsule storage and disposal; and,

                  •   Analyzed feasibility studies, external baseline reviews and
                      risk assessments to identify and evaluate alternative
                      storage and disposal options for the capsules.
              We conducted the audit in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at
              the time of our audit. We did not rely on computer processed data;
              therefore we did not conduct reliability assessments on the data.
              Finally, we assessed the Department of Energy's compliance with
              the Government Performance and Results Act of 1993. Richland
              had established performance measures for placing the capsules into
              dry storage. However, the performance measures were later
              dropped as planning for the capsules changed.



Page 6                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    We held an exit conference with Office of Environmental
                    Management and Richland Operations Office officials on July 18,
                    2006.




Page 7                                        Objective, Scope, and Methodology
Appendix 2




Page 8       Management Comments
                                                                    IG Report No. OAS-M-06-06

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
